<html>
<title> - CLIMATE CHANGE, PART II: THE PUBLIC HEALTH EFFECTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           CLIMATE CHANGE, PART II: THE PUBLIC HEALTH EFFECTS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                           Serial No. 116-17

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-639 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>                                
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 30, 2019...................................     1

                               Witnesses

Dr. Aaron Bernstein, Co-Director, Center for Climate, Health and 
  the Global Environment, T.H. Chan School of Public Health, 
  Harvard University
    Oral statement...............................................     8
Dr. Karen DeSalvo, Professor of Medicine and Population Health, 
  Dell Medical School, University of Texas at Austin
    Oral statement...............................................     5
Dr. Bernard D. Goldstein, Professor Emeritus, Graduate School of 
  Public Health, University of Pittsburgh
    Oral statement...............................................     7
Dr. Cheryl L. Holder, Associate Professor, Herbert Wertheim 
  College of Medicine, Florida International University
    Oral statement...............................................    11
Dr. Caleb Rossiter, Executive Director, CO2 Coalition
    Oral statement...............................................    13

* The prepared statements for the above witnesses are available 
  on the U.S. House of Representatives Repository at: https://
  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the public record during this hearing 
  are listed below, and are available at: https://docs.house.gov.

  * "Hurricane Maria's Legacy: Thousands of Puerto Rican students 
  show PTSD symptoms," pbs.org; submitted by Ms. Ocasio-Cortez

  * Testimony of Dr. James Servino; submitted by Ms. Ocasio-
  Cortez

  * Testimony of Dr. Daniel L. Costa, U.S. Environmental 
  Protection Agency, retired; submitted by Mr. Rouda

  * Statement from Ellen Atkin from Colorado; submitted by Mr. 
  Rouda


 
           CLIMATE CHANGE, PART II: THE PUBLIC HEALTH EFFECTS

                              ----------               
                              
                              
                                             Tuesday, April 30, 2019




                          House of Representatives,
                               Subcommittee on Environment,
                                 Committee on Oversight and Reform,
        Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Hill, Tlaib, 
Krishnamoorthi, Gomez, Ocasio-Cortez, Comer, Gibbs, and 
Higgins.
    Mr. Rouda. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time. This subcommittee is convened, the 
second in a series of hearings on climate change to consider 
the public health effects.
    I now recognize myself for five minutes to give an opening 
statement.
    Good afternoon. This hearing, as I mentioned, is the second 
of a series of hearings on climate change that the Committee on 
Oversight and Reform Subcommittee on Environmental plans to 
hold during the 116th Congress.
    In this subcommittee's previous hearing, our esteemed 
witnesses helped us examine the history of a consensus 
surrounding climate change based on overwhelming scientific 
evidence, previous industry knowledge and action, and the need 
to transcend partisan politics to address this most important 
issue.
    That hearing focused on the past. Today we will concentrate 
on the current impacts that global warming is already having on 
the health of everyday Americans.
    According to the National Aeronautics and Space 
Administration and the National Oceanic and Atmospheric 
Administration, 18 of the 19 warmest years on record have 
occurred since 2001, with predictions that 2019 will join this 
list.
    Cities throughout the United States are suffering from 
increased ground level ozone caused by increasing temperatures 
and continued high levels of particle pollution, which have 
been linked to activities such as the burning of fossil fuels 
and wildfires.
    Last week, the American Lung Association released its 20th 
annual State of the Air report. According to this year's 
report, more than 141 million Americans--or, put in other 
words, four out of 10 of us--live in counties with unhealthy 
levels of ozone and/or particle pollution. This is an over 7 
million person jump since last year's report.
    Excessive heat drives the formation of the dangerous smog 
and soot referenced in the report and exacerbates the 
conditions like asthma, lung cancer, cardiovascular diseases, 
and, in some cases, leads to death.
    Among the report's list of U.S. cities where breathing air 
is most dangerous to human health, my home state of California 
dominates the list. In the wake of recent wildfires, my fellow 
Californians have faced air pollution levels that exceed those 
in cities in China and India.
    And it is not just about California. In the last 11 years, 
nearly 80 million acres have been consumed by wildfire. This is 
an area greater than the state of North Carolina. States 
including Montana, Kansas, Oklahoma, Washington, Arizona, 
Colorado, Nevada, New Mexico, South Carolina, and Utah have all 
faced extremely destructive wildfires in recent years.
    I'm concerned that if we do not act now our children and 
grandchildren will be forced to grapple with toxic air quality 
far worse than what we are exposed to now.
    Global warming also significantly alters the geographic 
range of disease-carrying insects and pests, therefore exposing 
an increasing number of people globally and within the United 
States to vector-borne diseases, including Zika virus, malaria, 
Lyme disease, and others.
    It's also extremely important to note that the burden of 
these impacts is not evenly shared. According to the University 
of California study from 2009, climate change does not affect 
everyone equally. People of color and the poor are most at 
risk. Low income urban neighborhoods, communities of color, and 
the elderly are particularly vulnerable to increased frequency 
of high temperatures and heat waves. Buildings in urban areas 
absorb and poorly dissipate the heat, adequate air conditioning 
is expensive, and access to transportation to facilitate 
movement to cooler areas is lacking.
    Other vulnerable populations, such as children, seniors, 
and women, are also already facing and will continue to face 
the negative brunt of continued inaction.
    Instead of acting in the public interest to address these 
serious health effects, the Trump administration's proposed 
rollbacks seek to weaken and gut protections for clean air and 
clean water and places landmark environmental legislation 
enacted to reduce air pollution in the crosshairs.
    It is estimated that the Trump administration's attack on 
the Obama Administration's Clean Power Plan, legally justified 
under the Clean Air Act, would result in up to 1,630 additional 
premature deaths and 140,000 missed school days by children by 
2030.
    These aren't my numbers. These are the Trump 
administration's own estimates that they released alongside 
their rollback proposal of this plan.
    Additionally, the current administration's reopening of the 
national Clean Car Standards, a determination that lacks 
reasoned analysis and fails to offer reasoned explanation, has 
already been met with legal challenges from a coalition of 18 
state attorneys general from states including California, New 
York, Illinois, Iowa, Virginia, and Maryland.
    In fact, these rollbacks have even been opposed by the auto 
industry. American companies like General Motors and Ford 
Motors are saying the Trump administration is wrong on this.
    These rollbacks are not in the public's best interest. 
Instead these actions help create a world that is increasingly 
less safe for all Americans.
    This is not a hypothetical conversation. This is not a 
false narrative. Climate change has direct and indirect effects 
on human health, and these health effects are already being 
felt across the United States. These effects are real now and 
require action.
    Today, we are joined by Dr. Aaron Bernstein, Dr. Bernard 
Goldstein, Dr. Karen DeSalvo, and Dr. Cheryl Holder, who have 
all spent time in their respective roles studying the impacts 
of climate change on public health, the various effects that 
are already being felt in communities across our country, and 
they can speak to the role that the Federal Government should 
play in responding to this serious set of challenges.
    We also have Dr. Caleb Rossiter with us today whose 
thoughts the subcommittees looks forward to hearing.
    I appreciate the attention each individual on this panel 
has given to this critical issue that impacts all our lives.
    Thank you very much.
    And I now invite my colleague, the subcommittee's ranking 
member, Mr. Comer, to give a five-minute opening statement.
    Mr. Comer. Thank you, Chairman Rouda, for holding this 
hearing.
    Thank you also to our panel of witnesses for taking time 
out of your busy lives to join us for this important discussion 
about public health. I know that we all agree about the 
importance of promoting sound health policies for the benefit 
of our constituents. I look forward to hearing from all of you 
all.
    The Fifth Assessment Report from the U.N.'s International 
Panel on Climate Change projects with varying degrees of 
confidence several climate-related health impacts over the 
course of the 21st century. The extent of these impacts will 
depend on how much warming eventually occurs, which remains 
uncertain. But it seems clear that any health impacts will 
affect poorer populations in developing countries with low 
income the most.
    At the same time, the U.N.'s IPCC states that, quote, ``The 
most effective vulnerability reduction measures for health in 
the near term are programs that implement and improve basic 
public health measures, such as provision of clean water and 
sanitation, secure essential healthcare, including vaccination 
and child health services, increased capacity for disaster 
preparedness and response, and alleviate poverty,'' unquote.
    The conversation we are having today is an important one, 
Mr. Chairman, because it appears that many of the solutions 
proposed to address climate change, like the Green New Deal, 
would have a detrimental impact on the ability of poorer 
nations to develop the types of programs that the U.N. says are 
most effective to address public health.
    I fear that a premature move away from fossil fuels, 
particularly for poorer areas and nations, means that they will 
continue to have little access to the type of cheap, reliable 
energy that enables economic growth and allows for the 
provision of clean water and sanitation, widespread 
vaccination, and preventative child health services.
    As I have said before, coal mining is a way of life in many 
parts of America, including my district. Kentucky coal remains 
an important component of the Commonwealth's economy and 
America's energy portfolio. Kentucky was the fourth highest 
coal producer in the U.S. in 2016, mining 43 million tons of 
coal.
    In that same year, coal mines directly employed more than 
6,600 Kentuckians, most of whom reside in my district, and 
mining directly contributed billions of dollars to Kentucky's 
economy. Both the first and second largest coal counties in 
Kentucky, Union and Ohio Counties, are in my congressional 
district.
    Economic well-being is a leading indicator of health, the 
likelihood of disease, and premature death. And so I'm 
incredibly concerned about any proposal that would impact or 
eliminate this economic engine from my district and the 
Commonwealth of Kentucky.
    My concerns are not limited to my constituents or the 
United States, however. Inexpensive, accessible energy has led 
to technological, medical, and other advances that have driven 
the American economy and increased U.S. life expectancy.
    Of course, we still have work to do to make sure that those 
public health advancements are shared by all of society, 
including our most vulnerable citizens, such as the elderly and 
the poor. But I'm also concerned for populations in developing 
Nations, those where the majority of people still do not have 
electricity in their homes.
    I am eager to hear from our witnesses how we determine the 
right balance.
    On the one hand, there is a push to promote policies to 
address climate change that put obstacles in the way of access 
to cheap, reliable energy.
    On the other hand, we want to promote policies that expand 
basic lifesaving health services, like clean water and 
sanitation, to the poorest populations in the world.
    Those policies are most easily and quickly achieved with 
access to inexpensive fossil fuel energy that, by all accounts, 
will remain significant sources of worldwide energy for many 
years to come.
    As I said, Mr. Chairman, these are important questions, and 
I thank you again for holding this hearing and for our 
witnesses being here today.
    Thank you, and I yield back.
    Mr. Rouda. Thank you.
    Now I want to welcome our witnesses. Karen DeSalvo, M.D., 
professor of medicine and population health at the Dell Medical 
School of the University of Texas at Austin. Bernard D. 
Goldstein, M.D., professor emeritus, environmental and 
occupational health, Graduate School of Public Health of the 
University of Pittsburgh. Aaron Bernstein, M.D., co-director of 
the Center for Climate, Health and the Global Environment at 
the T.H. Chan School of Public Health, Harvard University. 
Cheryl L. Holder, M.D., associate professor and co-chair of 
Florida Clinicians for Climate Action, Herbert Wertheim College 
of Medicine, Florida International University. And Caleb 
Rossiter, Ph.D., executive director of the CO2 Coalition.
    Please stand and raise your right hands, and I'll begin 
swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you. Please be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    The microphones are sensitive, so please speak directly 
into them after you've turned the power on in front of you. And 
without objection, your written statement will be made a part 
of the record.
    With that, Dr. DeSalvo, you now are recognized to give an 
oral presentation of your testimony.

  STATEMENT OF KAREN DESALVO, M.D., PROFESSOR OF MEDICINE AND 
POPULATION HEALTH, DELL MEDICAL SCHOOL, THE UNIVERSITY OF TEXAS 
                           AT AUSTIN

    Dr. DeSalvo. Thank you, and good afternoon, Chairman Rouda 
and Ranking Member Comer and distinguished members of the 
subcommittee. Thank you for the opportunity to testify on the 
important topic of protecting the public's health.
    My message to the committee focuses on three areas to build 
more resiliency in the face of extreme weather and climate 
change. These efforts will strengthen our community's ability 
to withstand, adapt, and recover.
    First, we should strengthen our public health 
infrastructure to support a shift from responding to crisis to 
building capacity. Second, we should set higher expectations 
for the healthcare system to support their patients and be 
better stewards of resources. And third, encourage partnership 
between public health and healthcare, especially in models that 
leverage data and technology.
    My recommendations are borne mostly from my experiences as 
a doctor and a public health official in New Orleans, a place 
that is no stranger to extreme weather events. I want to share 
a story today not from my time in Hurricane Katrina, but rather 
a more recent one, one that could happen almost any day, any 
place in America from an extreme weather event.
    It happened after Hurricane Isaac made landfall in 2012. 
And though New Orleans had not flooded, we did have a 
widespread power outage. Once the major systems like hospital 
had power restored, we turned our attention to restoration for 
the rest of the community. And we had heard that there were 
seniors across the city struggling in the summer heat and 
wanted to provide help to those most in need, particularly 
those who could be electricity dependent, like those on oxygen.
    In the absence of good data to drive our efforts, I had to 
resort to going door to door to door, mostly in highrises that 
were subsidized housing, to assess the need to inform 
prioritizing power restoration based upon who we saw. It was a 
heartbreaking view that I got as I went in those many 
apartments of social isolation, physical isolation, food 
insecurity, many challenges, particularly for the seniors that 
we visited.
    This inefficient process spurred us to want to have a more 
proactive solution. So we worked with HHS to leverage Medicare 
data to more efficiently identify community members who are 
electricity dependent in an effort called emPOWER. It's now 
scaled nationwide by HHS to help public health in disaster 
response, like the one I described, but also to support 
resiliency.
    It's now nearly 14 years since Hurricane Katrina passed, 
and in those years the Nation has really made remarkable 
advances in our ability to respond to and recover from extreme 
weather events of all kinds. The performance of the public 
health and healthcare systems to extreme weather events like 
Hurricane Harvey or the California wildfires highlight our 
improvements but remind us that there are important areas where 
we can and should do more, especially for the most vulnerable 
in our community.
    First, the public health infrastructure needs strengthening 
to meet the rising health challenges of our Nation. In addition 
to addressing epidemics like those from opioids, public health 
also has an obligation to protect the public from health 
challenges arising from climate change. For example, they will 
need to continuously assess projected health burden from 
extreme weather events.
    To do their job, the public health infrastructure needs 
flexible, sustainable, and enhanced funding. The annual outlay 
for public health infrastructure is anticipated to be $32 a 
person annually. Based on our current national investment from 
Federal and local dollars, there remains a $13 per person gap 
in annual spending to provide adequate public health 
infrastructure to assure that all people in America have the 
public health protection they should expect.
    Second, healthcare systems have a responsibility to their 
patients in the face of climate-related disasters, and moving 
toward population-level care management and payment models will 
help with that accountability, especially if these models 
address all needs, including mental health.
    Healthcare also has a responsibility to become more climate 
adaptive and reduce the healthcare sector's carbon footprint in 
keeping with recommendations from Healthcare Without Harm and 
those from the National Institute for Environmental Health 
Sciences. Though the private sector has been taking action, the 
committee could ask CMS to strengthen the expectation of 
building an adaptive and resilient healthcare infrastructure by 
making it a requirement in the CMS emergency preparedness rule.
    And third, strong partnerships between public health and 
healthcare are essential, particularly those that strive to be 
more efficient and effective by leveraging 21st century tools 
like data and technology in the way that we did in the work of 
emPOWER.
    A great example of this is AIR Louisville, a collaboration 
that used geotracker devices to follow the use of asthma 
inhalers by frequency and by place. The information guided the 
care plan for the healthcare system for those patients, but 
also enabled public health to do targeted efforts to increase 
tree coverage, to identify alternate truck routes for reducing 
emissions, and to ultimately lead to improved health outcomes 
and lower cost for citizens.
    The CDC Climate and Health Program could be used if it were 
resourced better to develop more models like emPOWER that could 
be scaled across the country and implemented on the front lines 
to support resiliency or like Louisville AIR.
    Thank you again for raising the profile of the need to 
better protect Americans from the public health impacts of 
climate change and extreme weather events. I look forward to 
your questions.
    Mr. Rouda. Thank you, Dr. DeSalvo.
    Dr. Goldstein.

 STATEMENT OF BERNARD D. GOLDSTEIN, M.D., PROFESSOR EMERITUS, 
   ENVIRONMENTAL AND OCCUPATIONAL HEALTH, GRADUATE SCHOOL OF 
            PUBLIC HEALTH, UNIVERSITY OF PITTSBURGH


    Dr. Goldstein. Chairman Rouda, Ranking Member Comer, 
distinguished members of the committee, thank you for choosing 
the highly important but often neglected issue of the public 
health implications of global climate change.
    We cannot expect the public to endorse significant action 
based upon parts per million of carbon dioxide. A major answer 
to the public's appropriate ``so what?'' question is health 
impact.
    In the framework of public health, primary prevention is 
defined as totally avoiding the problem. Secondary prevention 
is early detection and change in habits to avoid the 
consequences. And tertiary prevention is lessening of the 
already occurring medical problem.
    It would take a textbook to describe all of the adverse 
public health implications of global climate change. Let me 
start with a simple undramatic effect that shows how climate 
change and public health are intertwined.
    Forty-eight million Americans are affected by food 
poisoning yearly; 3,000 die. Food poisoning is more common in 
summer, because bacteria growth is dependent upon temperature. 
The higher it is, the worse it will be.
    Heat itself directly causes illness and death. Air 
pollution will increase. Ozone causes summertime asthma attacks 
in children. Coal causes particulate pollution responsible for 
cardiorespiratory disease and premature mortality. Another 
source of particle is related to global climate change as far 
as fires, as you said, sir.
    Intensifying weather disasters include the force and reach 
of hurricane winds and floods. The predicted dry conditions 
with intermittent and heavy rains will result in wildfires, 
droughts, floods, stress on water resources resorts, and major 
impacts on agriculture.
    Surprises will occur. Unexpected contamination of our corn 
crop with aflatoxin, which a cause of liver cancer in topical 
countries, occurred in 2012 under weather conditions that mimic 
what can be expected of climate change. The cost was estimated 
to be upwards of a billion dollars.
    Particularly at risk are disadvantaged populations. I have 
worked on improving federally Qualified Health Centers that 
have treated such populations located in our areas of our 
southern states affected by hurricanes and by the Deepwater 
Horizon oil spill. These clinics will require more support.
    What can Congress do? Bipartisan support for primary 
prevention approaches has occurred in the past. The Montreal 
Protocol to replace CFCs was passed unanimously by the U.S. 
Senate.
    Many who erroneously claim that humans are not primarily 
responsible for global climate change seem to now agree that 
global climate change is occurring. Or whenever its cause, it 
is thoughtless not to be preventive in dealing with its 
consequences, particularly as there is nothing we can do about 
alleged causation by sun spots or a wobbly Earth.
    A bipartisan approach occurred in the last Congress on what 
is perhaps the greatest threat to public health, that of war, 
and particularly in our nuclear era. An attempt to remove 
funding for the global climate change program from the Defense 
Authorization Act was defeated because over 40 Republicans 
joined with Democrats to retain this program. Our military gets 
it.
    There's also bipartisan support for the rebuilding of 
American infrastructure. Congress needs to consider global 
climate change in this bill.
    Strong bipartisan support exists for STEM education. We 
need more Americans who understand science who will recognize 
that having the five hottest years on record in a row is more 
meaningful than the quibbles raised by climate deniers.
    Importantly, global climate change is worthy of both a 
comprehensive approach that includes nuclear power and 
recognizes the forcing role of population growth. It also 
should have a situation in which basically every congressional 
act is looked at through the lens of global climate change if 
it's pertinent.
    For primary prevention, we need to accelerate the reduction 
of greenhouse gasses, we need to do it as soon as possible, and 
we need to recognize that, with only five percent of the 
world's population, the United States cannot do it alone.
    With all due respect, to respond to Ranking Member Comer's 
important point about balance, the Paris Agreement was about 
balance.
    I end with a lesson from an old fable. We all know about 
the three little pigs sent out to the world after being warned 
about a big bad wolf. We also know what happened to the two 
pigs who dallied, one building a house of straw, another a 
house of twigs. The survivor was the pig who took the warning 
seriously and whose foresight and hard work protected the pig's 
home.
    Well, that's a form of secondary prevention. But we also 
need primary prevention. Before its huffing and puffing blows 
our house down, we have to kill that wolf.
    Thank you.
    Mr. Rouda. Thank you, Doctor.
    Dr. Bernstein.

 STATEMENT OF AARON BERNSTEIN, M.D., CO-DIRECTOR OF THE CENTER 
   FOR CLIMATE, HEALTH AND THE GLOBAL ENVIRONMENT, T.H. CHAN 
          SCHOOL OF PUBLIC HEALTH, HARVARD UNIVERSITY


    Dr. Bernstein. Chairman Rouda, Ranking Member Comer, 
members of the subcommittee, I'm delighted to be here this 
afternoon to speak with you about climate change and health. I 
should mention at the outset that I'm a practicing pediatrician 
at Boston Children's, and my primary responsibility is the care 
of children.
    As a doctor, I have cared for children with asthma whose 
lungs have been so damaged by contaminated air that they were 
scarcely able to breathe. I have sat with parents whose 
children had Lyme disease as they worried about whether their 
child's half-paralyzed face will ever get better. I have cared 
for children who no longer had a will to live, having survived 
floods that at once washed away their homes and their peace of 
mind. And I have held in my own arms infants whose brains were 
deformed by Zika virus whose prospects of living a healthy life 
vanished before they were even born.
    What ties all these experiences together, I am sorry to say 
to those communities in this country who depend upon fossil 
fuels, that it is our reliance on fossil fuels, which, when it 
is extracted from the earth and burned, damage our children's 
health through climate change and through the air and water 
pollution they produce.
    You as Members of Congress have a choice. You can choose to 
continue to support policies such as the $20.5 billion of 
taxpayer money given by Congress to the fossil fuel industry 
each year that enable our current heavy and disabling reliance 
on fossil fuels and allow more children to struggle to breathe, 
more children to contract disabling and fear-stoking 
infections, and more children to live in a world that is 
increasingly unpredictable and unstable. Or you can choose to 
lead, as so many cities, states, and countries have begun to 
do, and create a healthier, more just, and sustainable path.
    I will share facts in my testimony that demonstrate how 
replacing fossil energy with cleaner sources has immediate and 
local health benefits which can lessen health epidemics that 
are foreclosing on our children's health and futures right now.
    We are already approaching an expenditure of nearly a 
trillion dollars on the three disease categories I will mention 
today: asthma, obesity, and mental health disorders.
    Let me begin by talking about asthma. One in 10 children in 
the United States carries a diagnosis of asthma. Asthma 
afflicts substantially more children who are poor or African 
American. One in five children who are newly diagnosed in the 
United States with asthma received that diagnosis because they 
breathed air that has been polluted by fossil fuels.
    Burning gasoline and other fossil fuels, as you've heard 
from Dr. Goldstein, produces the building blocks of ozone air 
pollution or smog. For an athlete, breathing ozone is the 
difference between victory and defeat. For a child with asthma, 
it can be the difference between life and death.
    Climate change has already made asthma more burdensome as 
higher temperatures spur ozone formation. Dealing with asthma 
costs the U.S. economy more than $80 billion each year.
    Next, let's turn to obesity. One in five school-aged 
children in the United States are obese. Childhood obesity 
undermines health across the life span, making diabetes, bone 
diseases, heart disease, mental health disorders, and asthma, 
among others, all more likely.
    The obesity epidemic in the United States is so extreme 
that this generation, this current generation of children that 
we all know, may be the first in our Nation's history to live 
shorter lives than their parents.
    And the expense of obesity to the U.S. economy and 
healthcare sector is staggering. At a cost of $190 billion a 
year, obesity alone saps one percent of GDP.
    The good news is that when we choose to address climate 
change, we will also combat obesity. First, some of the same 
fossil fuel air pollutants that trigger asthma also influence 
obesity risk. Second, providing safe and accessible means for 
people to walk, bike, and use mass transit will help turn the 
tide on obesity. And third, eating diets rich in plant-based 
foods and with less red meat can prevent obesity and the 
diseases that accompany it.
    And last, let us consider what is at stake for our 
children's minds. One in six children age 2 to 10 have a 
mental, behavioral, or developmental disorder such as autism or 
ADHD. One in five adolescents will be diagnosed with a serious 
mental illness. Since 2009, the number of adolescents and young 
adults with depression and suicidality has increased by more 
than 50 percent.
    We can protect the developing brains of children and lessen 
the stresses of adolescence through our actions on climate. 
Particle matter, mercury, nitrogen dioxide, and poly aromatic 
hydrocarbons, all released when fossil fuels are burned, 
contribute to these conditions.
    Some $200 billion per year is lost to our economy dealing 
with mental health disorders in youth in this country, among 
them neurodevelopment disorders. More than $150 billion are 
spent on dealing with ADHD itself.
    We can do something about this. Planting trees and other 
vegetation can reduce urban heat, buffer air pollutants that 
contribute to neurodevelopmental and mental health disorders, 
and evidence increasingly shows directly prevent mental illness 
itself.
    Some believe that climate action is too expensive. 
Considering the evidence that you've just heard regarding just 
a handful of diagnoses, as well as many studies that evaluated 
near term and localized health benefits of climate action for 
individual states and for our Nation, you now understand such 
arguments couldn't be further from the truth.
    When the health value of climate actions are taken into 
account, time and again the benefits far outweigh the cost of 
transition.
    This holds true, and perhaps especially so, in communities 
that were built on the fossil fuel industry. So I cannot 
underscore enough that any plan to decarbonize must plan for 
the welfare of the families and children in these communities 
where poverty is already too common and opportunity too scarce. 
We must not leave anyone behind.
    In the end, as we come to realize the toll that climate 
change and the use of fossil fuel exacts on the health of our 
children today and how climate action can make them healthier 
today, and as we realize that we must choose to act on climate 
change to protect their world so that they and their children 
can continue to enjoy it as we have, as we realize that we 
cannot afford the health cost of inaction, our children are 
counting on you to do what's right. It's their lives and their 
futures that are at stake.
    Thank you.
    Mr. Rouda. Thank you, Dr. Bernstein.
    Dr. Holder.

 STATEMENT OF CHERYL L. HOLDER, M.D., ASSOCIATE PROFESSOR AND 
  CO-CHAIR OF FLORIDA CLINICIANS FOR CLIMATE ACTION, HERBERT 
 WERTHEIM COLLEGE OF MEDICINE, FLORIDA INTERNATIONAL UNIVERSITY

    Dr. Holder. Representative Rouda and other esteemed Members 
of Congress, I'm grateful for your invitation to testify this 
afternoon.
    In the spring of 1980, I submitted my senior thesis to 
graduate from Princeton University, and I wrote about the 
importance of psychological factors in identifying the root 
causes of hypertension. In my research, I found that external 
circumstances, like poor living conditions, lack of control 
over life choices, exacerbated hypertension. One of the major 
takeaways from the research was that we cannot deny the impact 
of outside world on a person's health.
    On another spring day today, a beautiful day, 39 years 
later, I sit before you all to explain why this remains the 
same. I arrived in Miami-Dade County in 1987, a National Health 
Service Corps Scholar, to serve the city's underserved 
population. I cared for its citizens as a physician primarily 
in all the publicly funded health centers across the county, 
from Opa-locka in the north, Liberty City in the center, to 
Homestead in the South.
    Most of my patients were low income, underserved, Black or 
Hispanic. And as we know, for many reasons poor people are, 
better or worse, we could say they're the proverbial canary in 
the coal mine. In the early 1980's, we saw the increases in 
HIV, and by the end of the decade we were in the midst of a 
national emergency.
    The pattern is repeated with substance abuse, obesity, 
early mortality for middle-aged men, and other health issues. 
We saw all this before in our poorer communities.
    Today, I'm an associate professor, Department of Humanity, 
Health and Society at the Florida International University, 
Herbert Wertheim College of Medicine, a fellow of the American 
College of Physicians, and in 30 years of practice I still 
mainly treat people without insurance. And even now, again, we 
are seeing the same mistakes that caused millions to die 
before.
    Twenty of the warmest years in recorded history have 
occurred in the last century, with the most recent five years 
being the hottest.
    I want to share a story with you that I hope will make real 
what life is like for a family with small children trying to 
survive in multiple consecutive 100-degree days in homes with 
two rooms, one window, and no air conditioner.
    My university, we do a home visit program we call Green 
Family Foundation NeighborhoodHELP, and with medical students 
and nursing students we went into this home in Little Haiti. It 
was June 2016. It was hot. When I opened the car door, I felt 
like the lifting of the lid on a grill when you were grilling 
some food and it was just left too long.
    My students were so excited to meet the family, and she met 
us at the door wearing a lovely white tee-shirt, her hair 
pulled back. She was so proud to invite us in her very tidy, 
slate blue home.
    We stepped in the front door, and instead of a couch, 
there's a double bed with a toddler sleeping quietly. She 
directed us to some chairs that were set out at the foot of the 
end of the bed but not quite in the kitchen. And this is where 
we would do our visit.
    As we settled in, we found ourselves sort of breathing a 
little bit uncomfortable because the humidity and the hot air 
was a little bit hard to inhale. But the discomfort was short 
lived because we wanted to face and talk with her and her 
family. But we felt the sweat in our shirts, we felt the sweat 
dropping, the ink had dropped on the page because we were just 
sweating.
    Despite our efforts, without AC, we could not hide our 
discomfort. She humbly got up and moved the fan from the baby 
and pointed toward us and offered us water. We said absolutely, 
no. We took the water, but leave the fan on the baby. We 
understood what was happening.
    But luckily, another child brought us a fan from the 
bedroom, and we got some relief. We said nothing of the heat, 
and we continued to visit and wrapped up in about 30 minutes. 
We thanked her for hosting us, grateful to be leaving, but sad 
because we understand that they could not.
    Heat affects mood, increases risk of dehydration, heart 
attacks. And you've heard my colleagues talk about all the 
different illnesses, and we all know it. People who lack air 
conditioning or spend time outdoors, like farm, construction 
workers, student athletes, are more exposed and at greater 
risk.
    I have a 70-year-old woman who came to me with COPD because 
she could hardly breathe at night, and she was using her air 
conditioning and couldn't afford to pay the bill. And the 
allergy season had prolonged, and she couldn't buy her asthma 
medicines regularly, and she needed help. So she asked me to 
sign a form so she could get a break from her electric bill.
    We've heard the statistics on asthma. Florida has over 2 
million, and one in nine African American kids have asthma. My 
typical patients, African American, impacted proportionally 
from this.
    The emotional toll is tremendous. My mom, who I treat who 
has Zika, is worried every day about the baby she delivered. 
And every time I see her, I remind that the baby is going to be 
fine, and we were going to make this, and she's going to be 
okay.
    In 2016, I stayed silent. But now we are working together. 
George Mason University and the National Medical Association 
have evaluated physicians, and 88 percent of the doctors, the 
Black physicians, noted that we were seeing the impact of 
climate in our patients.
    Last year, the Florida State Medical Association and George 
Mason came together to start the Florida Coalition for Climate 
Action. We want to increase the health literacy of our 
physicians. We want to help prepare our patients to adapt to 
the changing environment. We want this message to be taken 
across the elementary schools, the colleges, the medical 
schools, increase that curriculum and increase that knowledge.
    Our patients want more. Our patients want what the richer 
patients have. They have clean air and good standard of living. 
How can we guarantee the same for our poor people? Why do they 
have to sacrifice for better lives by having worse health?
    I'm grateful to you for me to bring these stories from the 
front lines of our Nation's capital. I hope you'll make the 
right choice this time to take action to make our communities, 
our cities, and our country healthful places to live, to raise 
our families for many generations to come.
    Thank you.
    Mr. Rouda. Thank you, Dr. Holder.
    Dr. Rossiter.

STATEMENT OF CALEB S. ROSSITER, PH.D., EXECUTIVE DIRECTOR, CO2 
                           COALITION


    Mr. Rossiter. I have a slide show.
    Thank you, Chairman Rouda and Ranking Member Comer. As a 
former congressional staffer, I'm honored to testify today.
    I'm a climate statistician and the executive director of 
the CO2 Coalition of 46 climate scientists and energy 
economists. I ask that our recent white paper on this topic, 
``Climate Change and Health,'' and my full testimony be taken 
for the record.
    Mr. Rouda. So moved.
    Mr. Rossiter. We save the people of the planet from people 
who think they're saving the planet from an always predicted 
but never realized climate catastrophe. A 1999 U.N. report 
predicted, and I quote, ``Entire nations could be wiped off the 
face of the Earth in 12 years.'' Sound familiar?
    So far, CO2 emissions have had a positive and modest impact 
on Americans' health. Crop productivity is up by 15 to 30 
percent because CO2 is a plant food. Weather mortality is down 
because CO2 is a warming gas and many more people die from cold 
snaps than increased heat. And the fracking revolution has 
saved many lives by making home heating cheaper.
    But it's in Africa that fossil-fueled electricity is truly 
a matter of life and death. Only 25 percent of African homes 
has electricity. That explains much of why life expectancy in 
Africa is 20 years lower than the rest of the world.
    If we could have the next slide.
    As a statistics professor, I taught my students to beware 
of two Latin enemies of the truth: ad hominem, which is arguing 
about someone's credentials and paycheck rather than their data 
and analysis; and post hoc ergo propter hoc, which is claiming 
that correlation between two variables is causation.
    Consider this Preston curve of life expectancy in a country 
as a function of its wealth or GDP per capita. Now, life is not 
bivariate. Many variables affect an outcome. But, of course, we 
human beings can only digest images in two dimensions.
    So we often use graphs like these which imply a strong 
causal relationship but only when we're confident that removing 
the effect of other important variables would not change it.
    This is one of those cases, this is one of the strongest 
findings in public health and social science: Being wealthy 
saves lives. You see that if Africa can move from all those 
dots at the sub-$1,000 per capita level just up to the $2,000 
per capita level, millions of lives will be saved.
    Reliable energy, reliable electricity, in turn, plays a 
huge role in getting wealthy and being healthy. Reliable energy 
means that Africans don't have to cook in heat with wood and 
animal dung dramatically, reducing lung and heart disease. It 
means that water can be purified for safe drinking, 
dramatically reducing the largest cause of infant mortality.
    Next slide, please.
    This is a typical rural African dwelling.
    Next slide, please.
    Inside it, people cook in heat with fuels that rob them of 
years of their lives.
    Next slide, please.
    This is the million-strong Cape Flats in South Africa. 
Under apartheid, this was dark. This is the great achievement 
of free South Africa, universal electricity and, as a result, 
clean water for all.
    A grid of fossil-fueled electricity would not only 
eliminate deadly indoor air pollution, it would also end deadly 
outdoor pollution from the dieselization of Africa. Factories, 
hotels, offices, and wealthy homes fire up their generators 
when the daily brownouts and blackouts hit. Mr. Chairman, you 
wouldn't want to be within a mile of a diesel generator in 
Lagos, yet no square mile is without one.
    But, of course, for all the benefits to wealth and health, 
what if fossil fuels and their carbon dioxide emissions really 
have led to climate catastrophe.
    Now, science is the testing of hypotheses with data. The 
data are what country singer Porter Wagoner used to call the 
cold hard facts of life. Using only the IPCC's words and data, 
Professors Roger Pielke and Judith Curry prepared these coming 
slides showing the extreme weather and rate of sea level rise 
have not registered any statistically significant change during 
the recent period of warming that was partially induced by CO2.
    Here are the cold hard facts of life from the IPCC. Rate of 
sea level rise, it says on there, no increase from when natural 
warming was the driver in the first half of the 20th century. 
Drought, no increase from that time.
    Next slide, please.
    Floods, no increase.
    Next slide, please.
    No trends in cyclones or hurricanes in North America.
    So climate catastrophe may happen, and we need to maintain 
vigilant scientific inquiry, but it hasn't happened yet.
    Last slide, please.
    The IPCC, as the ranking member has said, says with, quote, 
``very high confidence'' that the best ways to save lives are 
provide clean water, sanitation, vaccinate children, prepare 
for extreme weather, and help people get out of poverty.
    We agree with the IPCC. We are part of that scientific 
consensus. But those solutions today are not possible without 
cheap, reliable energy.
    At the moment, only fossil fuels can grow the food, drive 
the cars, dig the minerals, build the products, boost the 
economy, and provide preventive and care health for the sick, 
and that's good.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you.
    I now recognize myself for five minutes of questions. And 
I'd like to start out with, again, thanking all the witnesses 
for coming today.
    The goal of this hearing was to--we've got multiple phases. 
The first phase was the what we knew about climate change, when 
we knew it, and why we didn't do much about it, which we had 
that hearing a couple weeks ago.
    The hearings we're having now in this phase, the present 
situation, is to address the human toll and the economic toll 
of climate change in the present. And many of you provided 
obvious statistics showing that there's a clear relevance into 
what we're seeing climate change's impact on the human toll.
    And I'd like to start out with Dr. DeSalvo, because in 
California, in 2006, my home state had a 14-day heat wave where 
we saw about 36 million people directly affected, 16,000 
emergency room visits, 152,000 outpatient visits, $5.4 billion 
in damage, and that was over 10 years ago.
    So as we see this increase in wildfires, as we see 
increased abnormal storm patterns across the globe, do you see 
the impact of the cost, the embedded cost in healthcare 
continuing to increase?
    Dr. DeSalvo. I think, first of all, you raise a really 
important point, which is that the impacts of extreme weather 
events fall in many corners, not just on those that are trying 
to respond on the front line to the individuals, but there are 
actual costs associated with it in the healthcare system.
    And the folks that are largely impacted by things like heat 
or wildfires are those who already have a lot of chronic 
conditions or are predisposed to needing medical care or are 
older seniors and have more challenges, and so the cost drivers 
there are likely to be higher anyway. So somebody with--a 
senior with heart failure and emphysema that needs to go to the 
emergency room because of the air quality from a wildfire is 
going to have additional added cost.
    I think that anecdotally that's certainly been my 
experience as a doctor and in public health, that when there 
are events people who are sicker end up in the hospital. That's 
just sort of logical.
    I think what we're going to need to learn in a more 
quantitative fashion as a country is what is the cost of the 
changing--of extreme weather events, of climate change, and how 
will that be impacting the healthcare budget that we have as a 
country, especially since a lot of it will fall on the public 
budget, Medicare and Medicaid.
    And I think one thing the committee could do is work to get 
a shared set of facts that we would all understand and know 
about what the annual cost is of people presenting into the 
healthcare system because of events like wildfires.
    Mr. Rouda. And if you don't assume the incredibly small 
percentage of scientists out there who don't believe climate 
change is actually being caused by humankind and that if we 
focus just on the healthcare, Dr. Bernstein, just the fact if 
we had cleaner air, cleaner water due to using renewables 
versus fossil fuel, there is a clear impact, correct, in the 
cost of healthcare?
    Dr. Bernstein. Yes. I mean, we spend, as I alluded to in my 
testimony, hundreds of billions of dollars related to natural 
disasters.
    I would like to set the record straight about Mr. 
Rossiter's testimony. As a physician, I have to look at all the 
facts and what Mr. Rossiter told you were some of the facts.
    In his testimony, he did not mention heat waves. There's a 
very clear signal, which is robustly supported by IPCC with 
very high confidence, our own national climate assessment that 
heat waves are more common already because of climate change.
    He also did not tell you that the best available science, 
which is recently published in the Proceedings of the National 
Academy of Sciences this past month, that research at Stanford 
shows that warming to date over the last 50 years, which is 
mostly because of emissions from the United States, has 
resulted in an economic loss to GDP of 24 to 27 percent of the 
world's poorest countries.
    It's also true that 400,000 children in Africa die every 
year because of air pollution from burning both indoor fuels 
and outdoor fuels.
    And I could go on, but I just want to be clear that what 
you heard does not reflect the full truth as regards to what 
science understands.
    I might also add, with hurricanes, Hurricane Harvey, the 
best available science shows that climate change, the warming 
that has occurred already, increased the rainfall on Texas by 
20 percent. And I could go on.
    But there's absolutely clear evidence that climate change 
is influencing these disasters. I agree with him that it is not 
clear with droughts. Wildfires, I should add, there's 
compelling evidence that wildfire risk in places like 
California and the West has gone up by as much as 50 percent 
because of warming to date.
    So the science on these issues is out there, folks. You 
have to look for it and recognize that not everyone may be 
giving all the facts.
    Mr. Rouda. Thank you.
    Dr. Holder. Could I comment also?
    Mr. Rouda. Yes, please.
    Dr. Holder. On the increase in the CO2, and he talks about 
increasing production, it does impact the trees, and that's 
where I see it. Because the allergy season is longer, the trees 
are flowering more. We're having more vibrant flowering of all 
trees, which then creates more asthma and more allergies. And 
then that causes a tremendous increase in cost, because that 
triggers all your allergic reactions and your asthma.
    So directly the cost. And you can look at who gets asthma 
more in one country, in this country: Black folks who live more 
in polluted environments resulting from the fossil fuels. So 
the cost is already being borne by populations significantly.
    But CO2 increase is increasing our flowering and worsening 
our allergies.
    Mr. Rouda. Thank you.
    The chair now recognizes the ranking member, Mr. Comer, for 
five minutes.
    Mr. Comer. Yes. Thank you, Mr. Chairman.
    Dr. Rossiter, what are the best steps we could take right 
now to improve public health in poorer nations? Wouldn't you 
say that clean water and sanitation as well as increased 
capacity for disaster preparedness and response are essential 
elements to be addressed when seeking to improve a nation's 
public health?
    Mr. Rossiter. I would say there are two major ways to 
increase life expectancy in Africa dramatically. That's the 
same as saying there's two major ways to reduce infant 
mortality dramatically. The chart that I showed you is life 
expectancy. If you saw a chart for infant mortality, it would 
just be reversed, meaning poor countries have very high infant 
mortality.
    A typical African country is losing 80 children out of 
1,000 before the first two years of life. The United States, we 
lose maybe 8 to 10. And then Sweden, it might be five, and you 
don't get much lower than that.
    So I would say there are two major ways. One obviously is 
economic, and one is government action.
    On the economic front, what's happened to China in the last 
30 years clearly shows that the real driver of life expectancy 
is economic growth. China has engaged in a massive experiment 
using fossil fuels to boost its economy. They've moved to 
become a developed country from an underdeveloped country, and 
the life expectancy, on average, according to the World Bank, 
has gone from 55, like Africa is today, to 75.
    So that's simply wealth, for two reasons. It gives you 
money to take care of your own family, to make your house air 
conditioned, to make your house safe to go take your children 
to the doctor. But it also gives your government more money to 
do things like infrastructure that can clean the water. So 
that's the second major thing I would say.
    But the public sector, as we know, has a huge role to play 
in the United States. Malaria was eliminated in large part 
because of public health investments in the early 20th century 
trying to go for the sources of the mosquitos.
    You have to have government action as well as private 
action. But, again, government action takes money. And 
governments need to have the funds from economic growth, the 
tax base.
    In a sense, you know, South Africa, where I've been a 
professor and have worked much of my--much of my professional 
interest has been on South Africa, they made a deal at the end 
of apartheid, which is the whites got to keep the economy and 
the majority got to keep the government.
    So the economy continued to grow and the tax revenues were 
provided to the government, and that's why you see nearly 
universal electricity and clean water, which is very rare in 
Africa, and it has tremendous impact on infant mortality.
    So both economic growth and sound government health 
investment is how you get your dramatic reductions.
    Mr. Comer. I want to ask you a question about coal, because 
a lot of the people that are leading the movement here with 
various different climate change proposals are very anti-coal. 
They always cite coal as a dead or dying industry.
    In my district, we just opened a new coal mine this week. 
So on my Facebook site, the news article about it, really, now, 
this new coal company, the biggest payroll, best average wage 
in this rural county. I mean, it's a viable industry that's 
attacked daily by many on the other side of this issue.
    My question to you is, can you explain the role that coal 
would play in helping more Americans escape poverty and 
maintain a higher state of health and well-being?
    Mr. Rossiter. Well, you're going to think I'm advertising 
for the natural gas industry, but let's have this discussion.
    Obviously, inexpensive energy saves lives. You had 
testimony a few weeks ago from the gentleman from the Heritage 
Foundation, I think Mr. Loris, in this subcommittee about a 
U.S. Government study finding that simply from fracking, the 
price of natural gas for home heating came down so much that 
they estimate 11,000 lives saved a year in the United States 
since 2010.
    Obviously, coal is implicated. If coal is almost as cheap 
as that, then people are able to heat their homes because of 
electricity from coal. It's a major plus. The cost of energy in 
America causes people to reduce on cold.
    Now, when we talk about heat waves and cold snaps, 
remember, about 20 to one is the margin in our study--in our 
review of studies--why cold is more dangerous to public health 
than heat, because the effects of cold cause many respiratory 
illnesses, heart illnesses, that then extend for many weeks 
after the cold snap. Whereas with the heat waves, yes, they're 
dangerous if people don't have air conditioning and water. And 
as was mentioned earlier, we've gotten much better at 
responding both in Europe and the United States to heat waves.
    So you want to keep people from getting cold in the winter 
and feeling like they can't afford to turn on the heat. That's 
a big killer.
    Mr. Comer. Thank you. I yield back.
    Mr. Rouda. The chair recognizes Ms. Hill.
    Ms. Hill. Thank you so much.
    I have a few questions.
    The first is that, you know, I want to point out that we've 
talked a lot about the vulnerable populations that are 
impacted, but I'm particularly concerned about the elderly.
    Dr. Holder, can you talk about your experience in treating 
elderly patients? You state that during the hottest days the 
elderly suffer the most. Can you provide some details?
    Dr. Holder. What happens, the physiology, it's very 
difficult to regulate temperature, the extremity. And the 
pediatrician will know children and elderly do not regulate 
their body temperatures as easily.
    So our old population may not sense the temperature change. 
They may not respond properly by drinking and do not have the 
response to thirst, so they won't drink as much as they should. 
And they then will stay indoors, because they often do not have 
the mobility and the support to go outside and get cooling or 
go to a safe place. So they're much more vulnerable.
    In inner cities, big cities, and in south Florida, we see 
that problem with our elderly, just dehydration, heat 
exhaustion, and in the worst situations, we often end up with 
heat strokes and admissions and death.
    But in my population, why I try to tell that we don't want 
to wait for the end and the catastrophe and the heat strokes. 
We want to have awareness earlier. Like when my patient came in 
with her bill asking simply just to get a waiver of her 
electric bill, because she couldn't pay the bills, that was a 
beginning sign that she was having problems handling the 
response to the heat that she needed to do. And why should she 
be the one to have to go all the way to death, the emergency 
room and eventual death, in response to this. We know it's 
happening.
    Ms. Hill. Thank you.
    Dr. DeSalvo, in districts like mine fast-growing brush 
fires are a reality we face far too often. In fact, just last 
year I was forced to evacuate my home in Agua Dulce in Los 
Angeles County as houses and acres of ranchland burned nearby. 
So I'm familiar with the dangerous air quality that results 
from these fires.
    I'm also concerned about that impact on the elderly. And 
I'm wondering if you could briefly describe the health risks of 
the elderly population during a wildfire season.
    Dr. DeSalvo. Yes, I think some of the really concerning 
outcomes of those wildfires included some seniors that were 
just unable to evacuate because they had mobility issues. They 
didn't have transportation. They had hearing impairments. They 
didn't know about the event coming. There's a whole list of 
reasons why they're at higher risk.
    And there was increased mortality not only in those 
wildfires of seniors, but also in storms like Hurricane Harvey, 
Hurricane Katrina. We see that as a really recurring theme 
because they have physical and social challenges that prevent 
them from being connected and being able to access resources.
    But I'd love to just highlight this one really important 
point, which is, absolutely in the crisis of disaster they are 
at higher risk. They are also at risk every day. And there are 
just even minor things that we should be doing to really 
support resiliency. We do want to be there for them in 
disaster, but I would love to see us lean forward more to build 
their capacity and make sure they're connected to resources and 
people so that they can be stronger if an event does occur.
    Ms. Hill. Great.
    And many--this is to several of you--many older adults 
depend on Medicare for their medical needs once they're 
eligible. Based on the testimony we've heard today, it sounds 
like there could be additional need for medical care for the 
elderly as temperatures get warmer.
    Dr. DeSalvo, Goldstein, and Holder, would you agree?
    Dr. Holder. Absolutely. Unfortunately, we don't want to 
spend the dollars that way, but we do have to be prepared.
    Ms. Hill. And would you also--I guess, yes, Dr. DeSalvo and 
Dr. Goldstein?
    Dr. Goldstein. I agree.
    Dr. DeSalvo. Yes. I think for the physiologic reasons that 
you heard, they're just more prone to having medical problems 
when there's heat or cold.
    Ms. Hill. Do you agree that it's imperative for more 
research to be done to determine the exact cost that taxpayers 
would need to pay if we do not act to mitigate the effects of 
climate change?
    I guess raise your hands if you agree. Perfect.
    Dr. DeSalvo. Yes. I mean, having a shared set of facts 
would be wonderful, and then we would know the scale or 
challenge that we're dealing with, and we'd know if we're 
appropriately applying those resources.
    Ms. Hill. Great.
    And just really quickly. Dr. Rossiter, can you confirm that 
you have board members Roger Cohen, Craig Idso, and William 
O'Keefe on your board?
    Mr. Rossiter. No, I can't. Read me the names again.
    Ms. Hill. Roger Cohen, Craig Idso, William O'Keefe.
    Mr. Rossiter. On my board? No.
    Ms. Hill. They're not on your board?
    Mr. Rossiter. No, ma'am.
    Ms. Hill. Okay. Well, previously they were on your board. 
And one was the former ExxonMobil manager of strategic plans, 
the former director at Peabody Energy, and a former lobbyist 
for ExxonMobil and former CEO of American Petroleum Institute.
    Mr. Rossiter. I think that's probably accurate.
    Ms. Hill. Okay. So just clarifying that the fossil fuel 
industry is directly funding your nonprofit.
    Mr. Rossiter. That is false and an ad hominem attack and 
has nothing to do with the data at issue here.
    But, no, there is absolutely no funding for our 
organization and never has been from any fossil fuel industry. 
And do you know why? They have stopped giving money for science 
research about six years ago because of the sort of public 
relations cost of doing so. So they cannot do that now. They're 
beyond petroleum.
    Ms. Hill. But the members of the board, members of the 
board have direct ties to the industry?
    Mr. Rossiter. No. But it would be fine if they did. I mean, 
I have 46 climate scientists, energy economists, who have a 
variety of backgrounds.
    Mr. Rouda. Thank you.
    Mr. Rouda. Representative Hill, thank you.
    The chair now recognizes Representative Gibbs from my home 
state, Ohio.
    Mr. Gibbs. Thank you. Thank you, Mr. Chairman.
    I think it is sad, this attack on the fossil fuel industry 
that brings us the lowest cost of energy, plenty of supply. And 
we see in this country a decrease in our carbon emissions in 
the last 10 to 15 years mainly because of natural gas. And we 
see an increase in China and India and other places around the 
world.
    Dr. Bernstein, I was taken aback a little bit when you were 
talking about asthma in our children. I was thinking, going 
back prior to all this climate change talk, prior to 1970, our 
pollutants, I think they still are our main pollutants, 
particulate matter, sulphur dioxide, nitrogen dioxide, carbon 
monoxide, and lead and ozone.
    Can you kind of reflect a little bit what you thought the 
asthma rates were--I guess per capita--based prior to 1970? 
Because you really, in your testimony, you really blamed a lot 
of the asthma on CO2 emissions.
    Dr. Bernstein. Let me be clear that the best science shows 
that one in five children today in the United States are 
getting diagnosed because of exposure to emissions from fossil 
fuel. The data we have on asthma rates from the 1970's are not 
reliable because different standards were used to diagnose 
asthma.
    The diagnosis of asthma is not like a diagnosis of cancer. 
It requires subjective assessments of children and often can be 
conflated with other diseases. In fact, there is a 
discontinuity in our own national government data from--I don't 
remember exactly where the cutoff is--but the diagnostic 
criteria were reassessed and a new definition was made.
    The important point I think here is children have asthma in 
this country, 1 in 10 children; substantially more in Black 
children and poor children. And we know without question that 
when they breathe exhaust from cars or gas that's burned or 
fumes from coal, even though I'm the first to say that our 
Nation's air quality in general is doing much better than it's 
done, they are going to suffer more and it's disproportionate. 
Children who live closer to roads have higher rates of asthma 
for sure and other----
    Mr. Gibbs. But you would concur, I think, all the 
innovation and all the technology change we have been making 
has been helpful. I mean, the scrubbers, the catalytic 
converters, and all the things we have done to help protect the 
environment have been helpful. Will you concur to that or not?
    Dr. Bernstein. I'm sorry, helpful for?
    Mr. Gibbs. American innovation has been helpful, our 
technology has been helpful to drive down, even though we still 
have got 1 out of 10 children maybe with asthma.
    Dr. Bernstein. That's twice as many as did when I was born.
    Mr. Gibbs. Well, you just said me you couldn't tell me what 
it was.
    Dr. Bernstein. I wasn't born that long ago.
    Mr. Gibbs. Okay. I'll have to think about that one. I mean, 
I said prior to 1970.
    Dr. Bernstein. Mr. Gibbs, I--Congressman, I completely 
agree with you that greenhouse gases are going down, and they 
are going down in large part because of the gases coming out of 
Ohio.
    At the same time in Ohio, you have the sixth-worst infant 
mortality rate in country. You are the sixth-most obese state 
among children 10 to 17. Five percent of pre-term births in the 
state of Ohio are from particulate solution from coal-fired 
power plants. That's one of the highest attributable fractions 
of pre-term births from fossil fuels in the country.
    If Ohio takes action to further reduce emissions, you will 
benefit the most. But the poorest people in Ohio will benefit.
    Mr. Gibbs. Okay. Thank you.
    Dr. Rossiter, you talked about change and improvements, 
everybody has electricity versus trying to generate their own, 
trying to burn their own fossil fuel, wood or whatever.
    There's been talk about climate change having a direct 
impact in the frequency and scale of natural disasters. Do you 
believe that climate change is affecting the nature and size of 
the natural disasters? And maybe you can talk more in decades 
than just a small period of time.
    Mr. Rossiter. Yes. If you could put up for me, please, 
slide 13.
    Now, this is the temperature record by our government for 
the last 120 years or so. The black line is CO2 concentration, 
and this is why the IPCC says only that when you get to the red 
area, where temperature's gone up in the last 50 years, that 
they are comfortable and confident that at least half of that 
half-degree warming comes from CO2.
    Prior to that, the whole bluish area, the big one there, 
the big growth of half a degree in the first half of the 20th 
century is not due to CO2. There was insufficient CO2 to have 
the warming effect. Physicists agree on that. So we're talking 
about between a quarter and a half of the 1 degree came from 
carbon dioxide.
    The health effects of that obviously have to be shared in 
the same way. Global temperature was coming up hard from the 
19th century because of the end of the Little Ice Age before 
there was the carbon dioxide effect. And so these things we're 
saying about number of hot days and heat waves, a lot of this 
would be the same and was the same in the 1920's before we got 
to today, 100 years ago, because the Earth was warming 
naturally. So it is always hard to take out the other effect.
    But in answer to your question, when you count by decade, 
that was the data that I was showing. If you look at slide 22--
I can finish up quickly with this, Mr. Chairman--slide 22.
    This is by--no, that's not right, 22. It's got a picture of 
global landfalls updated. Keep going, maybe we'll get there, 
22. Yep, there we go.
    This is by decade. Ignore it. Ignore it.
    I happen to have a chart here of 1990 to 2016 showing no 
great range. But the way--the data that I put up earlier in 
red, the IPCC report, they count the hurricanes from the 1900's 
by decade, because it is a chaotic event. You have to count how 
many there are. Pretty easy to count. And that's the one that 
showed no trends. This shows just those trends in the last 25 
years. But most data should be done by decade if it's extreme 
weather.
    And, of course, when it gets hotter, more hot days, which 
we have anyway, you have less cold days where there is 
tremendous public health effect. So if you're going to count 
the deaths due to heat waves, you need to count the reduced 
deaths due to the fact we don't have as many very cold days.
    Mr. Gibbs. Thank you, Dr. Rossiter.
    I yield back.
    Mr. Rouda. Thank you.
    As this time, I'd like to recognize Representative Ocasio-
Cortez.
    Ms. Ocasio-Cortez. Thank you very much, Mr. Chair.
    Where to begin? I think, first and foremost, it's 
important, as was alluded by already Dr. Bernstein, as we are 
here we're sworn to tell the truth, the whole truth, and 
nothing but the truth. So let's just clarify a few things. I 
don't want to spend all five minutes fact-checking an actual 
witness.
    China is the world's leading country in electricity 
production from renewable energy sources. China produces over 
double the generation of renewable energy than the United 
States. When we want to say things like inexpensive energy is 
important, it's also important to clarify the facts, like 
renewable energy and production of renewable energy is less 
expensive than continued operation of certain forms of fossil 
fuel, including coal.
    And let's get it back to the actual subject of this 
hearing, which is the impact of climate change on human health. 
We are not debating whether climate change is real and we are 
not debating any of those attendant effects. We are debating 
and discussing here today the impacts on public health and 
human health.
    So, Drs. Bernstein, Goldstein, DeSalvo, and Holder, do you 
all agree that climate change is currently negatively impacting 
the health of Americans?
    Dr. Holder. Yes.
    Ms. Ocasio-Cortez. Yes.
    Dr. Goldstein, according to your written testimony, the 
last five years have been the hottest days on record for air 
and ocean temperatures. How does such extreme heat affect the 
lives of everyday Americans?
    Dr. Goldstein. I think the effect is not only on everyday 
Americans--for lots of reasons. I mentioned everything from 
food poisoning to areas of things that we don't even consider, 
such as I worked in your district as a kid growing up, driving 
a truck in the Bronx before there was air conditioning. You 
just couldn't get much work done on hot days.
    If we talk about Africa, and we are talking about the 
increased heat in a place that's already hot, it's just the 
ability to do work, the enervation that's caused by heat, is 
something that we have to take into account in any of these 
approaches.
    Ms. Ocasio-Cortez. You bring up an excellent point. I spent 
a brief amount of time living in West Africa and there I had 
actually contracted malaria. And I remember even really 
reflecting on the economic effect of such diseases, which can 
be widespread.
    I've been seeing some reports here, I actually have a 
report here from a scientist in my district who has been 
studying the pathogenic impacts of climate change. The 
potential spread of diseases and bacterial diseases. Have any 
of you all heard about this potential effect from warming air 
and sea temperatures?
    Dr. DeSalvo?
    Dr. DeSalvo. I think that's certainly one of the concerns, 
is that some infectious diseases, like those that are carried 
by some kinds of mosquitoes or ticks, as there are changes in 
temperature, they are more able to live in new environments. 
And so that would be new infections that would arise that might 
be unexpected in those environments. It might be some things as 
different as Zika or West Nile and some things like Lyme that 
maybe others are more familiar with.
    Ms. Ocasio-Cortez. So there are areas in the country--let's 
say, Dr. Holder--there are areas in the country that previously 
may see diseases that they've never seen before, whether 
they're spread by insects or whether they're spread by 
gastrointestinal bacteria infections.
    Dr. Holder. Absolutely. We see the Aedes Aegypti mosquito, 
which carries the Zika, Chikungunya, and Dengue. That range 
would be more subtropic. You are now seeing the range of 
temperature that those live and pass disease can go all the way 
up to the Carolinas.
    Aedes aegypti is really particularly dangerous because it 
just doesn't bite at dusk and dawn. It bites all day. It lives 
inside. It lives everywhere. So that's the one that we know 
pass on the Zika that came into Florida last year.
    So the range has changed. Lyme disease has gone all the way 
up to Maine. We are seeing West Nile virus. Vector-borne 
diseases will be pretty detrimental to the U.S.
    Ms. Ocasio-Cortez. And, Dr. Bernstein, you mentioned the 
impacts on mental health as well. And you would say that, in 
the aftermath of some of these major natural disasters, the 
survivors, and particularly young people, tend to see mental 
health costs?
    Dr. Bernstein. Yes, there have been many studies looking at 
child survivors of disasters, wildfires, floods, et cetera, 
that have documented persistent symptoms, particularly of post-
traumatic stress, so flashbacks and anxiety.
    Ms. Ocasio-Cortez. Thank you. Mr. Chair, I'd like to submit 
to the congressional Record two documents, one from PBS on the 
legacy of Hurricane Maria and students in Puerto Rico who are 
now exhibiting post-traumatic stress disorder symptoms; as well 
as testimony from Dr. James Servino on some of the pathogenic 
risk factors with climate change with respect to New York 14.
    Mr. Rouda. Without objection, so moved.
    Mr. Rouda. And thank you.
    The chair now recognizes Representative Gomez. I'm sorry. 
Oh, you just showed up. Well, I'm sorry. Representative Higgins 
snuck in behind my back. Come on. It's your five minutes time, 
please. Thank you.
    Mr. Higgins. Because I was a police officer prior to being 
a Congressman, I learned how to sneak up on people real well.
    Mr. Chairman, I don't know if this happened in my absence, 
but I'd like to grant Dr. Rossiter time to respond. During your 
questioning, good sir, he was personally referred to by two of 
our panelists, I believe respectfully so, but with some rather 
pointed statements.
    Dr. Rossiter, did you take notes during that time?
    Mr. Rossiter. I surely did.
    Mr. Higgins. Would you like to respond to those statements 
at this time, if you have not been granted that time?
    Mr. Rossiter. I would appreciate it.
    Mr. Higgins. Please, go ahead, Doctor.
    Mr. Rouda. You can use your five minutes as you see fit. So 
if you'd like to proceed.
    Mr. Rossiter. Yes, sir. I appreciate it, not because I felt 
that they were unfair accusations. I'm very happy to be on this 
panel. I want to respond because I think they're incorrect.
    Our organization had two of its doctors--Jan Breslow of 
Rockefeller University, Wes Allen of Australia--produced this 
white paper, which was submitted to the record recently, which 
was sort of a monumental study of all the health effects of 
recent warming, whatever its source.
    And what's interesting is that their research found that--
well, you saw floods already on a decadal basis, no more floods 
or rate of sea level rise or hurricanes than there were in the 
early 20th century.
    But when it comes to Zika and Lyme disease, we dealt with 
those in some detail here. It appears that CO2 and warming are 
minor, minor problems in the spread of Zika and Lyme disease. 
Lyme had to do with reforestation. Zika had to do with 
international air travel. Warmth is a factor among many, many 
other factors.
    But when it came to asthma, there's not a word in this 
report by these scientists about asthma, because they felt it 
wasn't even worth responding to.
    Asthma, of course, with good epidemiological studies, as 
I'm sure Dr. Bernstein is referring to, it needs to look at the 
reasons people report, the reasons people treat, how they're 
measured. As you mentioned, it was measured different in the 
1970's. It's such a complex area with so many factors that seem 
to be completely unrelated to carbon dioxide.
    Carbon dioxide at today's levels is about 400 parts per 
million, which is four percent of one percent. If you're on a 
submarine, you're probably going to get about 5,000 parts per 
million as you go out for your six-month tour. Plants grow a 
lot better at about 500 or 600 parts per million, as we're 
about to find out. We've already gone up 15 to 30 percent 
during the fossil fuel area of plant productivity just due to 
that.
    So in each of these areas that are mentioned the IPCC does 
not come to the conclusions that the other panelists who 
mentioned it have. That's why I didn't include them in my 
report. I'm happy to send back to the committee what we think 
about wildfires, which are, as discussed here, clearly 
influenced by so many factors about load and your safety 
measures and winds, which may not be related at all to 
temperature.
    It's extremely difficult to isolate a cause, but I think 
wildfires is one. It's a terrible public health problem. The 
smoke, we know, in California is a terrible problem. But 
linking it to there being more carbon dioxide in the atmosphere 
or a quarter of degree more temperature I just don't think has 
been proved by the data yet.
    Mr. Higgins. Let me ask in my remaining time--Doctor, thank 
you for your response. I wanted to give you an opportunity to 
address the statements from earlier.
    Do you concur, do your studies concur, are there any 
studies that disagree that the primary driving factor for 
public health is economic prosperity?
    Mr. Rossiter. I think that that Preston curve I showed you 
earlier is one of the more widely accepted.
    Mr. Higgins. It is rather commonsense.
    Dr. Holder. Which shows that as you get wealthy----
    Mr. Higgins. It's a direct correlation. And the 
availability of affordable energy is, of course, a cornerstone 
for economic development.
    So all of us here, we're here voluntarily. Ladies and 
gentlemen, we appreciate you coming. We admire your passion and 
your beliefs.
    But I believe that as Americans observe these hearings, 
they are getting home from work, and all of you arrived here by 
some method of fossil fuel. You all wear clothing developed 
from petroleum products. You all have, no doubt as doctors of 
great accomplishment, you have 401(k) portfolios with 
corporations that rely upon fossil fuels and carbon footprints 
to some extent.
    So that I think it's important, Mr. Chairman--and thank you 
for having this hearing--that we have honest conversations 
about an all-of-the-above energy policy for our country and 
that Congress supports, of course, expansion of clean energy, 
but the inclusion of fossil fuels must be part of that factor 
for economic prosperity.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, Representative Higgins.
    At this time, the chair would like to recognize 
Representative Gomez.
    Mr. Gomez. Thank you, Mr. Chairman.
    Dr. Rossiter, a simple question. Do you believe in climate 
change or not? Yes or no? And it's an easy yes-or-no question.
    Mr. Rossiter. Very difficult. You have to define climate 
change for me.
    Mr. Gomez. Okay. Well, we're not going to start. That 
answers it all. Thank you for being here.
    One of the things that I want to kind of really emphasize, 
is the GAO, the Federal Government, everybody has said that 
climate change is happening. You can go and read the reports if 
you need to read those reports. But I think for the American 
people to say that you are asking what the definition is, then 
that gives us a hint where you're coming from.
    Growing up in Riverside California, the Inland Empire, 
Riverside, I saw a time during the 1980's when we have so many 
days of what we call red flag days. We couldn't go outside to 
play because of the pollution in the air.
    California spent a lot of time to clean up our air. Then we 
also started--and a lot of those restrictions on emissions when 
it comes to tailpipe emissions from industry really did have an 
impact on our air quality throughout California.
    We started combating climate change to make sure that we 
would have a role in combating climate change, and we started 
reducing greenhouse gas emissions. Those had an additional co-
benefit of reducing pollution and pollutants, right? They kind 
of go hand in hand. People get them often confused regarding 
reducing greenhouse gas emissions and the co-benefits that go 
along with it, right?
    But one of the things that I've noticed is that the people 
that are most impacted are people that are children and 
seniors, immigrants, poor and low-income families, rural 
communities, people of color, indigenous people, right? These 
are the people that are most impacted.
    And then oftentimes when we do pass--and these are the 
folks that are facing poor air and water quality. They have 
issues, health issues, like asthma, heatstroke, bacterial 
infections, heart and lung disease. You know if we can combat 
it, it has a positive impact.
    I was in the California State Legislature. One of the big 
issues I had is that the money from the Greenhouse Gas 
Reduction Fund wasn't going to the people that were most 
impacted, right? The poor. And having a lack of air 
conditioning and not having heat, which I did not have growing 
up, does make a difference on people's health. Also not having 
health insurance also has an impact on people's health.
    So climate change policies, I believe, do--anything we do 
has to prioritize the working class, the underserved, the 
underpaid, the struggling, those struggling against racial 
inequality, and those with preexisting conditions.
    Dr. Bernstein, you have spent your career taking care of 
children. What are some of the impacts you are seeing on the 
children in low-income communities and communities of color?
    Dr. Bernstein. Specifically related to climate change, air 
pollution?
    Mr. Gomez. Both.
    Dr. Bernstein. I see a number of them. We see heat 
exposures leading to problems for particularly kids with 
chronic diseases like asthma, diabetes. That causes their 
diseases to sort of get worse either with breathing or 
metabolic problems.
    The air pollution issues I alluded to in my testimony are 
quite apparent, as you talked about your childhood, when it's 
hot out in particular we see ozone action days, particularly 
problematic for children who are obese, who also tend to have 
asthma, especially trying to get children outside to exercise. 
In the summer we are telling them to stay inside because it is 
too dangerous to be outside.
    We see effects on infectious diseases. I alluded to Lyme 
disease. It should be clear and important to know that 
particularly--I'm sorry Representative Higgins and 
Representative Gibbs are no longer here, but their constituents 
are actually substantially at risk for the diseases that are 
being moved northward.
    And it is not just Lyme. These ticks carry other diseases, 
Babesiosis, Anaplasmosis. Other ticks carry other diseases that 
are growing substantially.
    Mr. Gomez. I wish we can--five minutes is not a lot of time 
to kind of debate some of these issues, but I've seen it with 
my own eyes in California. And we have been leading the country 
when it comes to combating climate change and taking those 
dollars and reinvesting.
    You know, I get it, you can actually reduce--if we focus on 
providing healthcare to people, you are going to have a bigger 
impact than just reducing climate change, right? But then the 
other side doesn't want to even provide healthcare to other 
people.
    So some of the arguments from the other side just infuriate 
me. And one of the things we're going to continue doing is 
really talking up climate change. And I understand the 
reduction of greenhouse gas emissions to reduce, you know, 
combat climate change is essential. But the co-benefits that go 
along with it, including cleaner air and cleaner water, making 
sure people have better health outcomes, they're all tied 
together. And we're going to continue focusing in on that.
    Mr. Chairman, thank you for having this hearing. I really 
appreciate it. And I yield back.
    Mr. Rouda. Thank you, Representative Gomez.
    At this time, the chair recognizes Representative Tlaib for 
five minutes.
    Ms. Tlaib. Thank you, Chairman.
    I want to thank all of you so much for your testimony in 
this critically important discussion about human impact on 
people's public health, especially women and children, when we 
do nothing about climate change.
    Through the chair, I'm going to respectively disagree with 
Dr. Rossiter and just tell you, I lived in a community and I 
still am raising my two boys where it is very hard to see the 
direct impact.
    However, I thought that smell was normal, I thought that 
CO2 was normal, that it wasn't impacting people's lives the way 
now I see a third of the classroom when I read to them raising 
their hand when I say, ``How many of you have asthma?''
    I do this intentionally because I want to stay grounded in 
understanding and believing in them because of the trauma of 
not being believed when you say you're being poisoned by C02 
and other kinds of pollutions out there.
    I have the most polluted ZIP Codes in the state of 
Michigan. One of five children have asthma, Dr. Rossiter. And I 
can tell you, we have the only oil refinery in the state of 
Michigan. We have some of the largest-polluting corporate 
polluters in the state in my district, in the 13th 
congressional District.
    Dr. Bernstein, you discussed in your written testimony 
about--I think you called it fumes across the fence line. I 
found that African American children in southeastern Michigan 
suffer over 2,400 asthma attacks annually caused by oil and gas 
pollution in the air and miss over 1,700 days of school.
    This is something I talk to school administrators about, 
the fact that they have high rates of absences, when you hear 
about corporate polluters getting violations passed that 
weekend because they've outputted more than their air permit 
required.
    And it really is something that I think for those at home, 
for my 13th congressional District residents, I just want them 
to know I believe them, and there are doctors and scientists 
out there that believe them, that CO2 output is killing people. 
Asthma attacks kill people at three times higher rate among 
adults. In 48216, in the ZIP Code 48216, has hospitalization 
among adults three times.
    These are real public health impacts. And so I'm going to, 
through the chair, respectively disagree with the information 
provided by Dr. Rossiter. And I don't have a question for you 
at all.
    However, Dr. Goldstein and Dr. DeSalvo and Dr. Holder and 
Dr. Bernstein, I want to know the direct impact on women, 
especially women of color, when this administration has not 
pulled its weight to protect kids. What can parents and 
communities do at the grassroots level to keep children safe?
    Dr. DeSalvo. I'll be happy to start because I appreciate 
very much the verb you just used, which is ``do,'' which is 
something I hope the committee will look hard at and find ways 
that there can be bipartisan common ground for actions that we 
could take together that would protect people today.
    And so some examples would be requiring more partnership 
between public health and healthcare on the front lines and 
using data in the way that I described in my testimony.
    We know a lot about communities, children, people of color, 
but we're not always accessing that information to be targeted 
and strategic in protecting people from any kind of an impact 
and also supporting them after they've had some negative 
impact.
    So publicly available tools like emPOWER, that started in 
the Obama Administration, continue to this day, are a way that 
local communities can identify people at risk, get them the 
help they need, not during disaster, but to help build 
resiliency.
    And so I hope that we'll be able to find ways to work 
together in the near-term to support people who really need our 
help.
    Dr. Holder. In Florida, we've developed a whole--there's a 
whole list, if you go online, of all the community resources 
that we've been--the action groups that have come together to 
fight this. Because we're at the front line in Florida. We're 
feeling the sea level rise. We're seeing our beach erode. We 
had Zika. We have extreme----
    Ms. Tlaib. Dr. Holder, when you say front line, I love 
that, because I always say, you want to see what doing nothing 
on climate change, you want to see what doing nothing looks 
like? Come to the 13th congressional District and I'll show you 
block by block of people with cancer and asthma, respiratory 
issues.
    Again, doing nothing does result in death, and people 
really are hurt by the fact that government is doing nothing to 
protect them.
    Dr. Holder. Absolutely. We also, with the Florida 
Clinicians, that's one of the goals. But on the ground we have 
local communities, poor communities that are developing 
resource centers in the hearts of the poorer communities, that 
before a storm the poor folks can go and get water, they can 
get food. Because if you've never prepared for a storm, if you 
don't have money, you can't get water, you can't get food, and 
you can't go to a shelter without your own food and water. So 
they're creating these sites in the community and giving mental 
health services at those sites.
    So we're mobilizing efforts to help the poor community as 
far as bias. But we want--we need--the government to come in 
and support and recognize that whatever the cause of fossil 
fuels and everything else, the poor, the most vulnerable are 
suffering now.
    And should we sacrifice that population so everybody else 
can have? I don't know. To us, that's not the answer. For us, 
it's how do we mobilize our forces to help the current 
situation now and the vulnerable now.
    Dr. Goldstein. There are data out there suggesting, which 
makes sense, that there is more domestic violence against women 
the hotter it is. We can understand why that would happen.
    There is data on ozone. We did some of it in New Jersey. If 
you go to emergency rooms during the summer and you look at 
ozone levels and look at asthma admissions, you find that you 
can explain a significant percentage of the ozone--the ozone 
cases seen in emergency rooms in northern New Jersey are based 
upon what the ozone levels were. The hotter it is, the more 
ozone you're going to have.
    So these can be looked at. The ozone one you can do 
something about as a family.
    You asked about the front line things. Well, ozone builds 
up during the day. And the old question of should you jog in 
the smog is more important to children. They should be playing 
in the morning before the 11 o'clock ozone level starts 
building up. If you are a jogger, you should jog in the morning 
rather than after work.
    These are things that we have to--we should not have to do 
these things, we should not have these ozone levels, we should 
not have these other issues that are being caused by things 
that we have nothing to do--nothing to control.
    Mr. Rouda. Thank you.
    Dr. Holder. Could I add? One thing we know in primary care, 
women bring the kids, women come to doctors. So if you want to 
know what the impact is on families, we already know.
    So some of the data, it's nice to have, but if you've gone 
to the doctors, women are there. So the impact of climate and 
health and storm preparation, everything for the family often 
disproportionately falls on the women.
    And at night, I have to say, my postmenopausal and 
menopausal women are complaining to me, says you have to get 
that temperature down to 73 degrees to sleep well. When you 
can't afford it and it's hotter at night you don't sleep well.
    So women are paying the cost for sleep, we're paying the 
cost for taking care of the families, we're paying the cost for 
preparing, we're paying a huge cost right now.
    Mr. Rouda. Thank you, Doctor.
    I'd like to submit two documents into the record. The first 
one is the testimony of Dr. Daniel L. Costa, U.S. Environmental 
Protection Agency, retired; and the statement for the record 
from Ellen Atkin from Colorado. Without objection, these are so 
moved into the record.
    Mr. Rouda. I'd also like to thank the witnesses for 
testifying today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for your response. And I ask that you please respond 
as promptly as you are able.
    In closing, I'd like to point out that the purpose of these 
hearings is not to debate the economic advantages that fossil 
fuels have provided us and other parts of world over the last 
couple hundred years. That goes without saying. The point is, 
is that the current consumption of fossil fuels and the impact 
it has on climate change is real and that our ability to move 
to renewables faster and more effectively has a positive impact 
on all of us.
    One of the main areas talked about was asthma. As a father 
of four growing up in Ohio and our children in Ohio, two of my 
four children have been identified as having asthma due to 
environmental issues in Ohio.
    Moving to California, we have been fortunate that we no 
longer have to experience what it's like to have your child 
wake you up in the middle of the night, wheezing, trying to 
breathe, with their lips turned purple as they try and figure 
out how to breathe.
    But we were lucky. There are many, many children who suffer 
continually around our country and around the world who did not 
have the opportunity to get quality medical treatment or to 
move to a place where they can meet the needs of their 
children.
    I often talk about climate change. We can debate about how 
severe it will be or how fast it will come, but we can't debate 
any longer that it is coming.
    And I often cite the Department of Defense, who recognizes 
climate change as a primary national security threat. I tend 
not to think of the Department of Defense as a bunch of 
liberals claiming that the sky is falling. These are 
individuals who look pragmatically at the true national 
security threats facing our country and we should listen to 
what they are telling us. And what they are telling us is 
climate change is real, it is now, and it needs our immediate 
attention.
    And finally, before we adjourn, I personally try to look at 
the decisionmaking that we make as elected leaders as to what 
side of history do we want to be on. And I hope that all of us, 
whether it is you in your community or us here serving our 
country in the House of Representatives, that we make our 
decisions based on what side of history do we want to be on for 
our kids, our grandkids, and future generations.
    And with that, we are adjourned. Thank you.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
